<html>
<title> - CHINA'S LATEST CRACKDOWN ON DISSENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                  CHINA'S LATEST CRACKDOWN ON DISSENT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2011

                               __________

                           Serial No. 112-59

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
66-295PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Wei Jingsheng, chair, Overseas Chinese Democracy Coalition...     8
Mr. Harry Wu, executive director, Laogai Research Foundation.....    11
Ms. Jing Zhang, director of operations, All Girls Allowed........    18
Mr. Steven Mosher, president, Population Research Institute......    31
Mr. Phelim Kine, Asia researcher, Human Rights Watch.............    46
Ms. Andrea Worden, Adjunct Professor of Law, American University 
  Washington College of Law......................................    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Wei Jingsheng: Prepared statement............................    10
Mr. Harry Wu: Prepared statement.................................    14
Ms. Jing Zhang: Prepared statement...............................    23
Mr. Steven Mosher: Prepared statement............................    36
Mr. Phelim Kine: Prepared statement..............................    49
Ms. Andrea Worden: Prepared statement............................    56

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
Mr. Phelim Kine: Summary of Human Rights Watch report: Promises 
  Unfulfilled....................................................    82
The Honorable Christopher H. Smith: Material submitted for the 
  record.........................................................    89

 
                  CHINA'S LATEST CRACKDOWN ON DISSENT

                              ----------                              


                          FRIDAY, MAY 13, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good morning, and welcome to our witnesses and 
to everyone who is joining us to examine the Chinese 
Government's intensifying assault on human rights.
    In recent months, the human rights situation in China has 
gone from abysmally bad to worse. In fact, we have not seen 
this level of blatant violations of human rights since the 
crackdown on Tiananmen Square protestors in June 1989.
    Since February of this year, the Chinese Government has 
significantly increased its oppression of human rights 
advocates, including activist lawyers, bloggers, clergy and 
members of independent religious groups. It has resorted not 
only to social pressure, intimidation, and physical harassment, 
but also to threats against family members, beatings, and even 
forced disappearances.
    Lawyers, in particular, have been targeted. In William 
Shakespeare's play, ``Henry VI,'' Dick the Butcher and 
anarchist Jack Cade plan the success of their diabolical plot 
by stating that, ``The first thing we do, let's kill all the 
lawyers.'' Frankly, it is no different in China today.
    Government harassment of lawyers and law firms that work on 
human rights cases or other politically sensitive matters is on 
the rise. In recent years, lawyers who took cases in opposition 
to the government's interests have faced disbarment, house 
arrest, kidnapping, beatings, and prison.
    A very recent example is Li Fangping, the lawyer for Chen 
Guangcheng who has been engaged in a public crusade to expose 
the horrors of forced abortion in China. Mr. Li was abducted by 
unidentified individuals on April 29th, 2011, outside the 
offices of a health rights non-governmental organization for 
which Mr. Li was serving as a legal advisor. His whereabouts 
today are unknown. Ironically, his arrest occurred the day 
after the United States and Chinese Governments concluded a 
human rights dialogue.
    Religious freedom is also under increased attack. Although 
China has been designated a ``Country of Particular Concern'' 
since 2000 (meaning it is one of the worst violators of 
religious freedom in the world), statistics from 2009 and 2010 
indicate that the number of arrests of Christians increased 
almost 43 percent.
    Because the Chinese Government demands that religious 
organizations serve the aims of the state, religious 
organizations must receive government approval to operate. 
Failure to do so means the groups lack legal protection and the 
membership is vulnerable to human rights abuses at the hands of 
government officials.
    However, many religious observers adhere to the tenet that 
they must ``render unto Caesar what is Caesar's, but unto God 
what is God's,'' and as a direct result, they are severely 
persecuted.
    Recent cases include the denial of the Shouwang Church in 
Beijing from occupying either the space they rented or the 
space they purchased; the disappearance of three Catholic 
priests who refused to register with authorities for official 
recognition; and the lockdown of the Kirti Monastery in Sichuan 
Province and the disappearance of approximately 300 monks from 
there.
    We will also be examining recent developments with respect 
to the Chinese regime's ongoing imposition of the barbaric one-
child policy. Few outside of China understand what a massive 
and cruel system of social control the one-child policy 
entails.
    According to the U.S. Congressional-Executive Commission on 
China, the system is marked by pervasive propaganda, mandatory 
monitoring of women's reproductive cycles, mandatory 
contraception, mandatory birth permits. Imagine, you need 
permission from the government in order to have a child. And 
coercive fines for failure to comply, in addition to forced 
sterilization and abortion.
    The price for failing to conform to this barbaric system is 
staggering. A Chinese woman who becomes pregnant without a 
permit will be put under mind-bending pressure to abort. She 
knows that ``out of plan'' illegal children are denied 
education, healthcare, and marriage, and that fines for bearing 
a child without a birth permit can be up to 10 times the 
average annual income of both parents, and those families that 
can't or won't pay are jailed or their homes are smashed in or 
their young child is killed.
    If the brave woman still refuses to submit, she may be held 
in a punishment cell, or if she flees, her relatives may be 
held and, very often, beaten. Group punishments will be used to 
socially ostracize her. Her colleagues and neighbors will be 
denied birth permits. If the woman is, by some miracle, still 
able to resist this pressure, she may be physically dragged to 
the operating table and forced to undergo the killing of her 
child. Her trauma is incomprehensible.
    It is a trauma she shares, in some degree, with virtually 
every woman in China, whose experience of intimacy and 
motherhood is colored by the atmosphere of fear created by the 
government, by government threats and determination to intrude 
itself in a deadly fashion in the most private aspects of her 
life.
    The World Health Organization reports over 500 female 
suicides occur each and every day in China. China is the only 
country in the world where female suicide rates are higher than 
the male, and according to the Beijing Psychological Crisis 
Study and Prevention Center, in China the suicide rate for 
females is three times higher than that of males. The result of 
this policy is a nightmarish brave new world with no precedent 
in human history, where women are psychologically wounded and 
girls fall victim to sex-selective abortion.
    In some provinces, there are some 140 boys that are born 
for every 100 girls, and most children grow up without brothers 
or sisters because, again, brothers and sisters are illegal. 
They also grow up without aunts or uncles or cousins. 
Gendercide is a serious crime and it is absolutely prevalent in 
the People's Republic of China today.
    The one-child policy is spawning other grave human rights 
violations as well. Just this week there were media reports 
that government officials in one province were kidnapping 
children who were allegedly born in violation of the one-child-
per-couple policy and effectively selling them for a profit to 
be adopted overseas. We all know that sex trafficking is 
exponentially increasing in the People's Republic of China as a 
direct result of a dearth of females.
    It is estimated that something on the order of 40 million 
men will not be able to find wives by 2020 because they have 
been systematically eliminated pursuant to the one-child-per-
couple policy. That is absolutely outrageous and a serious 
crime against humanity and is among the most serious crimes of 
gender ever.
    I would like to yield to my good friend and colleague Mr. 
Payne, the ranking member, for any opening comments he might 
have.
    Mr. Payne. Thank you very much, Mr. Chairman. I would like 
to commend you for calling this timely hearing. With the recent 
conclusion of the strategic and economic dialogue, as well as 
the human rights dialogue, the administration is working to 
ensure that human rights remain an important aspect of U.S./
China discussions.
    I look forward to hearing from our panelists who work with 
dedication to advance human rights in an increasingly 
repressive China. I commend you all for your courage and 
continued work on this issue and I look forward to your 
testimony.
    China's repression of religious minorities is not new. Last 
July Falun Gong practitioners from around the world joined 
together in Washington, DC, to hold a nighttime candlelight 
vigil remembrance of the opposition of the Falun Gong that 
started in China in 1999.
    For 12 years now the millions of Falun Gong practitioners 
in China, and at one point here even in the United States, have 
been subjected to acts of violence and assault, property theft 
and destruction, illegal wiretapping, harassment, intimidation 
and persecution against practitioners of Falun Gong in the 
United States.
    In China thousands of practitioners of the peaceful 
religion have been killed. Hundreds of thousands have been 
detained and more than 100,000 have been sentenced to forced 
labor camps, typically without trial. Now the Chinese 
Government is using similar tactics against its burgeoning 
civil society.
    Over the past several months Chinese security forces 
reportedly detained, arrested, and held incommunicado between 
50 to 100 people and placed another 200 under heavy 
surveillance. The government's coercive extrajudicial tactics 
against its critics including physical harassment, beatings, 
forced disappearances, and threats against family members.
    This crackdown is unprecedented and its scale under the 
current leadership appears sadly to be a part of a broad 
strategy to regulate an increasingly dynamic society. Without a 
doubt the Chinese watch nervously as masses of disenfranchised 
citizens successfully challenge the dictatorships in Northern 
Africa and the Middle East.
    The call of Chinese activists for their own Jasmine 
Revolution of peaceful protest marches have been met with firm 
repression. To date the Chinese Government holds an estimated 
25,000 prisoners of conscience in detention. Yet, despite this 
repression we are also seeing an increasing active civil 
society as human rights defenders, activists, lawyers, 
bloggers, churches and minorities strive to make their voices 
heard.
    In 2010 we saw a 20 percent increase of major social unrest 
as Chinese civil society activists voice their deep grievances 
against local government corruption. The courage of lawyers 
who, despite retaliation, continue to defend human rights 
defenders of fathers who, despite threats to their own safety, 
work to advance consumer protection after corruption and food 
safety endangered their children.
    And of religious minorities who despite severe restrictions 
on non-registered places of worship, continue to practice their 
faith and claim their cultural rights, their courageous cause 
for hope. I look forward to hearing to what extent the Chinese 
public is becoming involved in these changes and how it has 
been affected by the political repression and political 
involvement.
    During the past decade, due to strong congressional 
leadership, the U.S. administrated a growing number of foreign 
assistance programs, the majority of which was devoted to human 
rights, democracy, rule of law, as well as related activities 
such as supporting the Tibetan community and protecting the 
environment. I'm heartened to see that U.S. programs seem to be 
helping to build a small but determined core of civil society 
individuals and reformist government officials who in the long-
term may enable China to transition to democracy.
    China is a growing power and a partner in individual trade 
and global development. Yet, it is important to recognize that 
the Chinese cannot enforce stability at the expense of human 
rights. Too many of the challenges the Chinese people face, 
from HIV/AIDS epidemic to a looming food crisis, will require 
citizen activism and involvement to find sustainable solutions. 
It is my strong belief that the United States cannot be 
indifferent to Chinese human rights violations. I firmly 
believe that a nation that pursues growth by silencing its 
citizens is building a foundation in sand which cannot resist 
the tides of civilian unrest.
    I look forward to your testimony on the state of the 
current crackdown, and your estimations on how this Congress 
can target its involvement and aid to civil society to enable 
viable long-term reform in China. I yield back.
    Mr. Smith. Thank you, Ranking Member, for your statement.
    Now I yield to the vice chairman of the subcommittee, Jeff 
Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for convening 
this important and timely hearing, particularly given this 
week's U.S./China strategic economic dialogue here in 
Washington.
    I am heartened, Mr. Chairman, that the United States and 
Secretary Clinton have taken a more deliberate tone with China 
on human rights this week than during the recent state dinner 
for President Hu Jintao.
    Part of the change in tone and tenor, I believe, is due to 
the wave of freedom we have seen sweep North Africa and the 
Middle East known as the Arab Spring. As Secretary Clinton 
said, they are trying to stop history which is a fool's errand.
    As the Chinese Government attempts to play down the 
Secretary's remarks, I think it is important that this body 
give thorough and clear attention to the many extreme human 
rights abuses by the Chinese Government against its citizens 
wishing to exercise some modicum of freedom.
    Do I want a good relationship with China? Yes, absolutely. 
China is a valuable world partner. But for China to achieve the 
legitimacy that it seeks, it needs to make significant gains on 
a number of fronts and join the community of responsible 
nations.
    Since I began serving in Congress, Members of Congress from 
both sides of the political aisle have boldly challenged 
Beijing on its ruthless treatment of democracy activists and 
their families, Internet freedom advocates, religious 
minorities, women and families victimized by a callous one-
child policy and even coerced abortion.
    We have tried managing our complex relationship with China 
in a manner that honors the transcendent principles that define 
our national purpose and identity, a nation founded on freedom 
of religion, a nation that embraces freedom of speech and 
justice, and free and fair commerce as worthy foundations of 
prosperity for future generations.
    As this hearing is underway many individuals continue to 
suffer horrific tortures in China for voicing their desire for 
personal liberty. Nobel Laureate Liu Xiaobo languishes in 
prison as his wife and family members remain under house 
arrest.
    Chen Guangcheng, the blind lawyer who exposed to the world 
China's cruel and draconian forced abortion policy, has 
continued to be victimized by the Chinese Government. His 
lawyer abducted and his whereabouts unknown. Countless others 
suffer in silence. People who have disappeared into the vast 
network of gulags that no human being should ever have to see 
or experience.
    Why do we care so deeply about China's legacy of violence 
and oppression? Aside from our deeply-held philosophical 
principles of liberty and universal rights, Americans, of 
course, buy a vast amount of Chinese made goods and China holds 
a great deal of American debt, nearly $2 trillion by some 
estimates. And we have a bilateral trade deficit approaching 
$300 billion that poses weighty concerns.
    We must also challenge China to abandon its embrace of 
unbridled mercantilism which manifests itself in massive 
subsidies and other trade distorting practices that contribute 
to this staggering imbalance. China must know that global trade 
is inseparable from global responsibility.
    In terms of global stability, managing our military 
relationship to maintain regional stability becomes all the 
more critical now that China has achieved an initial 
operational capability in land-based anti-ship ballistic 
missiles threatening our Pacific fleet. In the nuclear realm 
China's policies also cause concern. China is modernizing its 
nuclear arsenal.
    We have a responsibility to work together to shake this 
complex relationship with China, to seek meaningful progress on 
the tough issues, and to acknowledge the many positive elements 
of China's ancient culture and civilization. However, we must 
do so without shrinking from challenging the outright 
effrontery to our principles and whitewashing grave threats to 
our integrity such as the egregious human rights violations 
that will come to light in this hearing.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Mr. Fortenberry, thank you very much for your 
statement.
    I would like to now introduce our extraordinary panel of 
experts, three of whom have spent considerable time, in two 
cases almost two decades, in the infamous Laogai system and 
speak with profound authority concerning what they experienced, 
what they know. Their friends are still languishing and 
suffering the brutalities of the dictatorship, as well as 
academics and human rights advocates who speak out daily and do 
so courageously on behalf of all of the human rights issues in 
China.
    I'll begin first with Mr. Wei Jingsheng who served two jail 
sentences totalling more than 18 years in China for his pro-
democracy work. He was forced into exile in 1989 but continued 
to advocate for human rights and democracy in China.
    In 1998 Mr. Wei founded and became the chairman of the 
Overseas Chinese Democracy Coalition, an umbrella organization 
for many overseas Chinese democracy groups. He is also 
president of the Wei Jingsheng Foundation and the Asian 
Democracy Alliance. He has written numerous articles and 
regularly speaks about human rights and democracy in China 
including broadcasts in China via Radio Free Asia.
    I will note parenthetically that Wei was actually let out 
of prison by the Chinese dictatorship in the early 1990s in the 
vain hopes of procuring the Olympics in 2000. I met with him in 
Beijing at the time and had dinner with him. He was 
subsequently arrested when they didn't get Olympics 2000. They 
got them years later. He was of such high value as a political 
prisoner that one man's release was thought by the hardliners 
to be sufficient to obtain the Olympics.
    We will then hear from Harry Wu who survived 19 years in 
Chinese labor camps. He came to the U.S. in 1980 and became an 
activist for human rights in China. In the 1990s he showed 
incredible bravery by returning to China on a human rights 
mission. He was discovered, arrested, and sentenced to 15 more 
years in the Laogai. He was released following an international 
campaign on his behalf.
    Mr. Wu is the president of the Laogai Research Foundation, 
the author of countless reports and numerous books on human 
rights, a frequent witness before this and the full committee. 
He recently founded the Laogai Museum right here in Washington. 
I do hope people will visit it because it is a very chilling 
reminder not just of what has been past, but what is the 
present, and, hopefully, not the future for China.
    We will then hear from Ms. Jing Zhang who built a career as 
a newspaper editor for 20 years in Hong Kong and in the United 
States. She suffered 5 years in a Chinese prison for her belief 
in freedom and democracy. She founded Women's Rights in China 
in 2007 to popularize the noble cause of women's rights and 
advocate for the weak and underprivileged in China.
    As the director of operations of the organization All Girls 
Allowed, Ms. Zhang directs the projects aimed at the prevention 
of female infanticide, the education of abandoned female 
orphans, the reuniting of trafficked children with their 
families and the advocacy on behalf of forced abortion victims.
    We will then hear from Mr. Steven Mosher who is the 
president of the Population Research Institute and the author 
of numerous books on China including Hegemon: China's Plan to 
Dominate Asia and the World and China Misperceived: American 
Illusions and Chinese Reality. I've read three of his books 
including A Mother's Ordeal and it brought great insight, I 
think, to me and anyone else who took the time to read it.
    He served as the director of the Asian Study Center at the 
Claremont Institute from 1986 to 1995. He was a commissioner on 
the U.S. Commission on Broadcasting to the People's Republic of 
China from 1991 to 1992.
    He was educated at the University of Washington and 
Stanford University and in 1979 became the first American 
social scientist permitted to do field research in China since 
the Communist Revolution. He was the man, at least for the 
U.S., and frankly, most of the free world, who broke the story 
of the one-child-per-couple policy.
    Frontline, 60 Minutes, the Beijing bureau chiefs for the 
Washington Post and others all, back in the early '80s, relied 
on his historic and breakthrough research about what women were 
experiencing as a direct result of the horrific one-child-per-
couple policy and has worked on this human rights issue and 
others ever since.
    We will then hear from Mr. Phelim Kine who is an Asia 
researcher at Human Rights Watch. A former news wire bureau 
chief in Jakarta, he worked as a journalist for more than a 
decade in China, Indonesia, Cambodia, and Taiwan prior to 
joining Human Rights Watch in April 2007. Mr. Kine's opinion 
pieces on China's human rights challenges have appeared in 
numerous major media.
    He has spoken publicly on China's human rights challenges 
at venues ranging from the European Parliament to a hearing of 
the U.S. China Economic and Security Review Commission. Mr. 
Kine is a graduate of Carleton University in Ottawa, Canada. We 
greatly appreciate his taking the time to share his insight and 
counsel.
    We will then hear from Professor Andrea Worden who teaches 
Chinese law at American University, Washington College of Law. 
She consults on rule of law programs and civil society 
initiatives with a particular focus on China.
    Professor Worden's current research interests center on 
criminal justice and transitional justice in China, as well as 
China's interactions with the United Nations human rights 
system. She serves on the Board of Directors of the Yale China 
Association. Prior to becoming a consultant, Professor Worden 
served as general counsel and senior advisor on criminal 
justice with the Congressional-Executive Commission on China.
    We are joined by Congressman Frank Wolf. I would like to 
yield to my very distinguished colleague. I will note 
parenthetically Mr. Wolf is the author of the International 
Religious Freedom Act. China, as I said in my opening, since 
2000 has been designated a CPC, country of particular concern, 
because of its egregious violations of religious rights.
    Mr. Wolf.
    Mr. Wolf. Thank you. I cannot stay but I just wanted to 
come just to listen to a portion. Thank you to you and Mr. 
Payne for having these hearings.
    I appreciate, Chris, your effort on China over these years. 
Also, you have a very distinguished panel and I will read 
everything. I will take it as I leave. I appreciate what they 
have done.
    With that I yield back. Thanks, Chris.
    Mr. Smith. I would like to now yield to Wei Jingsheng.

    STATEMENT OF MR. WEI JINGSHENG, CHAIR, OVERSEAS CHINESE 
                      DEMOCRACY COALITION

    Mr. Wei. I want to express my gratitude to you for giving 
me the opportunity to speak here.
    In recent years, especially in the last half-year, China's 
human rights have been deteriorating rapidly. The Chinese 
Communist regime strengthened its suppression against the 
dissidents, human rights lawyers, and all kinds of religious 
and faith groups. It also strengthened its blockade and control 
of the Internet, broadcasting, and print media.
    The regime's attitude toward general mass organizations has 
gone from some degree of tolerance into intolerance. It also 
increased its arbitrary handling of legal cases involving both 
the general public and its own officials. Among all, the most 
important changes are reflected in the following two points.
    The first is the Communist regime's increased arbitrariness 
in dealing with law. There is an obvious strengthening of the 
tendency to dominate judicial cases by various levels of the 
Communist organizations and officials. Take the Li Zhuang case 
in Chongqing as an example. Almost all the legal proceedings 
have been destroyed. Only according to the intention of the 
local Communist leaders, a wrongful case was created against a 
rights-defending lawyer.
    The authority has not only undermined the judicial process, 
but also used means of deceptive and illegal exchange to force 
the related parties to plead guilty. Further, it made illegal 
court decisions when evidence was absent. Yet, this decision 
has received collective recognition and encouragement by the 
highest level of the Chinese Communist leaders.
    This model will soon be popularized throughout the whole 
country. It will not only greatly encourage illegal sentencing, 
but also reduce the possibility of judicial intervention for 
the defendant to gain access and help from lawyers and thus 
create the biggest convenience for the Communist officials to 
interfere with judicial system.
    Thus, likely China could revert to the lawless state during 
the Cultural Revolution period when the Communist regime 
smashed the existence of the judicial mechanism.
    The second is that the laws for illegal detention have been 
expanded from officials and dissidents to include the general 
public include religious and faith groups. The forced 
``disappearance'' of the famous artist Ai Weiwei recently is a 
typical example. What is noteworthy is that, just as in the 
case of Li Zhuang in Chongqing, this case of Ai Weiwei is also 
supported by the highest-level Communist leaders. Thus, it soon 
will become a model for the whole country.
    The characteristic of this case is that the authority 
publicly carried out its action of forced ``disappearance.'' 
After it violated China's own Criminal Procedure Law and 
detained the person, the authority did not notify the family, 
yet released the related information publicly in the media by 
its official spokesman.
    This is equivalent to flouting laws in the open, and 
announces the fact that the will of the Communist Party is 
above the law. This is significantly different from the 
individual illegal activities during the Deng Xiaoping and 
Jiang Zemin eras. It also represents the transformation of the 
whole justice system toward the extreme dictatorship of the 
Nazi and Mao Zedong. Two reasons producing these changes are 
noteworthy.
    The first is that the Chinese Communist Party has lost its 
confidence in its own ruling capacity. Due to the increased 
opposition from the people, as well as the intensified internal 
struggle within the Party, there are very few people who 
believe that the system of the Communist Party can continue. 
Besides returning to the lawless state of the extreme 
dictatorship, the Communist Party does not have a method for 
controlling the social crisis.
    The second is that the international community, 
particularly the U.S. Government, is showing its weakness to 
the Chinese Government due to economic interests.
    This weakness has led, for a while now, to a rising 
defiance against the USA by the Chinese officials and the 
society at large. When the international society is concerned 
about human rights, it is considered as politicians staging a 
show for their own voters, in a way to deceive the people of 
their countries. Whoever pays attention to this international 
pressure would be ridiculed by the others.
    So now it has even developed to the degree of directly 
ridiculing the U.S. Assistant Secretary of State for the Bureau 
of Democracy, Human Rights and Labor. This ridicule enabled the 
related Chinese officials gain some benefits of public opinion.
    The action of Hu Jintao humiliating the United States at 
the White House also won him exceptional praise within the 
Communist Party. This kind of attitude has been and will be 
applied to the Western businessmen and tourists in general. The 
U.S. Congress and the administration should not ignore such 
kind of developments.
    I thank you.
    [The prepared statement of Mr. Wei follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Mr. Wei, thank you so much for your testimony.
    Mr. Wu.

STATEMENT OF MR. HARRY WU, EXECUTIVE DIRECTOR, LAOGAI RESEARCH 
                           FOUNDATION

    Mr. Wu. Chairman and Vice Chairman and Congressmen. Let me 
say something about Chinese activities today in the human 
rights situation.
    The Chinese Communist Party rose to power in 1949, and for 
about 62 years it has unrelentingly clung onto power by 
systematically repressing, disappearing and killing its people. 
The Party that originally proclaimed itself the savior of the 
common people has become one of the most repressive regimes in 
history.
    By depriving its people of basic rights and freedoms and 
keeping its people in the dark and in a constant state of fear, 
the CCP has managed to maintain its sovereignty. Let me give 
you some examples. The Central Committee passed a resolution 
called 179 that said in government documents, or Communist 
Party documents, or in their policy they have to stop using Mao 
Zedong thought so this is separate from the central decisions 
because many people today are raising up trying to criticize 
the Mao Zedong thought.
    Secondly, China is actually a country which has a special 
ruling. The Party set up so-called two certainty. It means in a 
certain time in a certain place the Chinese Communist Party 
members if they violate the law they have to make a confession.
    Many governors of the province and many ministers, 
including in the Ministry of Transportation, were under arrest. 
There is no legal arrest but so-called discipline department 
officers. They have to make a confession before they go to the 
court. How many people were there? Two-point-two million. Two-
point-two million Communist members were under so-called double 
certainty.
    The third event I want to point out for you. In January 
2011 in the Communist center, Tiananmen Square, the Chinese set 
up a Confucius statue. I was very surprised because Tiananmen 
Square is a political center and only the Communist Party, 
central party, can make a decision. They have Mao portrait, 
Marx portrait, Lenin portrait, and Stalin portrait.
    Very confusedly they have a Confucius statue. So far we 
know Mao, when alive, seriously criticized Confucius, was 
against Confucius, opposed Confucius. Today in the political 
center in Tiananmen Square everybody is confused. Shall we 
follow Mao or follow Confucius? In this month, May, around 100 
days later, Chinese quietly in the middle of the night removed 
the Confucius statue. It disappeared. So these events are 
telling you the Communist Party today is very confused and does 
not know how to handle the future.
    Recently, Chinese Government has been increasingly vigilant 
in its efforts to suppress freedom of speech; not only do they 
control the media, but they block countless foreign Web sites 
and blogs through the use of a highly-intricate surveillance 
system called ``Golden Shield.''
    In recent months, China has also been arresting and giving 
lengthy sentences to political dissidents. Ai Weiwei's father, 
was a famous poet, is highly recognized by the Chinese 
Communist Party but unfortunately he disagreed with the 
government and was arrested.
    We do not know how many people have been arrested. So far 
we have more than 40 people disappeared. It's not only Liu 
Xiaobo, but also another dissent named Liu Xianbin. Liu Xianbin 
was arrested by the government twice. The first time he was 
sentenced to 2\1/2\ years. The second time 13 years. When he 
was released he was rearrested last month and sentenced to 
another 10 years.
    The Chinese Constitution claims to grant its people freedom 
of speech and freedom of assembly, however, without a fair and 
just legal system to uphold these ideals, these so-called 
rights are just empty words. Yet these ideals are not absent 
from Chinese society; they are important enough for Liu Xiaobo 
and Liu Xianbin to speak out on behalf of the victims of the 
Tiananmen Square massacre.
    They continually write and express their pro-democracy 
ideas, even at great risk to their own safety and the safety of 
their families. Admittedly, lack of free speech and the right 
to assembly has ensured that China's single-party dictatorship 
remains ``stable.'' However, the longer the CCP refuses to 
properly and responsibly deal with the country's changing 
political, economic, and social conditions, the more likely 
another Tiananmen Square incident becomes.
    The longer the CCP tries to keep a tight lid on the 
diversity of opinion and expression within society, the more 
violent the backlash will be. The reign of the CCP cannot and 
will not last forever. There will be a day when China will 
finally be a free country.
    Recently the Chinese and America had a dialogue, the so-
called the Strategic Economic Dialogue between the U.S. and 
China. Despite a promise of the U.S. officials to bring up 
human rights issues in the dialogue, the issue of human rights 
was barely touched upon and the U.S. and China merely agreed to 
continue in constructive dialogue of human rights. How come the 
U.S. claimed to be a leader of human rights and freedom in the 
world if it is continuing to turn a blind eye to the human 
rights situation in China?
    Also, I would suggest President Obama and the Congress have 
to care about the American companies with their business inside 
China. At least they should not have relations with to Chinese 
military and security systems. I strongly urge President Obama 
and the U.S. Congress to be bold and take a firm stand against 
China's human rights abuses.
    [The prepared statement of Mr. Wu follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Mr. Wu, thank you very, very much.
    We now ask Ms. Zhang to present her statement.

STATEMENT OF MS. JING ZHANG, DIRECTOR OF OPERATIONS, ALL GIRLS 
                            ALLOWED

    Ms. Zhang [via translator]. All Girls Allowed is a non-
profit Christian organization registered in the U.S. and 
founded by Chai Ling, two-time Nobel peace prize nominee and 
former leader of the 1989 Tiananmen Square Democracy Movement.
    AGA's mission is to restore life, value and dignity to 
girls and mothers, and to reveal the injustice of China's one-
child policy. As you may know, and as Congressman Smith 
referenced, there are many human rights abuses that are 
occurring as a result of the policy. With the love of Christ 
and the power of God, AGA is taking on this massive issue, with 
faith that this will come to an end. Today I have the privilege 
of translating for Jing Zhang, director of operations at All 
Girls Allowed.
    In February 2011, inspired by the wave of democratic 
movements in the Arab World, the Chinese-language Internet 
community gave birth to messages of the Jasmine Revolution. The 
Chinese Government reacted in panic with a severe crackdown, in 
blatant violation of the Chinese Constitution and the U.N. 
Charter.
    It dismissed international condemnation and arrested 
hundreds of dissidents, civil rights attorneys, and artists 
including Jiang Tianyong and Ai Weiwei. Even members of the 
public in the streets who happened to be carrying jasmine 
flowers were arrested.
    Through AGA's communication with house church networks, we 
know of increased persecution of the Shouwang Church in 
Beijing, whose members have been systematically threatened, 
arrested, and questioned. In the Guizhou province, since March 
18th, more than a dozen dissidents have been arrested without 
reason and detained for over a month.
    One of them, Ms. Wu Yuqin, had cancer; her 80-year-old 
mother was also arrested for defending her daughter. Two other 
women, Wang Lihong and Liang Haiyi, were arrested and charged 
for expressing opinions related to the Jasmine Revolution. The 
Chinese Government has also put non-governmental organizations 
and their workers under surveillance. The work of All Girls 
Allowed suffered drastically because of threats and harassment 
from agents of the Ministry of State Security.
    Today, China's cruel control of its own people continues to 
deepen. This year's Chinese domestic security budget reached 
624.4 billion Chinese yuan, exceeding the military budget of 
601.1 billion yuan. This huge spending on domestic security 
control and the founding on March 4th of a new National 
Internet Information Office lead us to believe that the Chinese 
Government has little intention of allowing greater freedom to 
its people.
    The first of AGA's programs, the Baby Shower program, aids 
rural Chinese mothers and baby girls. Every month, AGA workers 
distribute stipends to mothers of baby girls; these stipends of 
about $20 are used to buy baby formula, food and clothing for 
their daughters. The purpose of the stipend is to save the baby 
girls from sex-selective abortion, infanticide or abandonment. 
The stipend also increases the perceived value of girls and 
gives dignity to mothers who might otherwise hang their heads 
in shame for having a baby girl.
    Over 550 girls and families have benefitted from this 
program. Surveys of sponsored families have shown a drastic 
change in culture: Despite getting an illegal ultrasound to 
verify the gender of their current child, the vast majority of 
families who participated in the Baby Shower program expressed 
that they would not abort or abandon their next child, even if 
it were a girl a remarkable success and breakdown of thousands 
of years of oppression against girls and women.
    Unfortunately, since March, AGA workers have been harassed 
by local police and security agents. Some workers have been 
detained and interrogated multiple times and forced to divulge 
every detail of the program. Officials of local towns and 
villages have disseminated rumors that workers were trouble 
makers who would be arrested by the police, which troubled and 
inconvenienced mothers who received aid through the program.
    In one instance, police not only conducted forced 
interrogations, but also sent two agents to record the aid 
distribution by video. (In order to protect the personal safety 
of our workers, we will not identify the specific location.) 
These agents followed the AGA workers on their visits to 
families in remote villages, recording the conversations 
between our workers and the beneficiary families.
    While AGA workers and local families were talking at the 
doorstep, they stood nearby. When our workers entered local 
houses, the police would enter and sit down as well. One may 
well imagine the anxiety and oppression felt by the AGA workers 
and rural families. Some families requested to stop receiving 
aid in order to escape police attention, fearing that the 
attention would have long-lasting ill effects on the entire 
family.
    Many volunteers also decided to stop contributing their 
time to this charitable program. They had volunteered with AGA 
to serve the local community, but found themselves treated as 
suspected felons under open police surveillance. Neighbors of 
AGA workers also became suspicious and began opposing their 
work.
    In another instance, a farmer whose family receives our aid 
was forcibly pushed into a police vehicle for interrogation. 
His cell phone was confiscated and he was threatened by the 
police. They asked him whether the aid carried any conditions, 
what the volunteers said to him, and whether there was any 
encouragement to join Falun Gong. After hours of interrogation, 
he was released.
    As a result of police harassment, some field workers and 
aid-receiving families have requested an early termination of 
the Baby Shower program. Consequently, hundreds of baby girls 
and their families have lost the monthly assistance, which 
carried no conditions except that the family must have a 
newborn daughter. To a family whose monthly income was only 
between 300 to 500 Chinese yuan ($46-$77), this represents a 
grave loss.
    A field worker told me,

        ``It's hopeless. If we continue the program, we might 
        end up in prison. If the government wants to arrest 
        someone, there's no shortage of made-up charges. In 
        China, it's not easy to do good even if you want to. 
        The government wants to watch everything. They don't 
        want to overlook any detail, even your thoughts. They 
        have all the money and all the manpower. That's what it 
        means to have a strong and glorious country.''

    The openings of the People's Congress and the Political 
Consultation Congress in March coincided with the Jasmine 
Revolution, when the government's surveillance and oppression 
became even more rampant. Police arrested all ``questionable 
personalities'' found in sensitive locations in Tiananmen 
Square and kept them in detention centers such as Jingjiuzhuang 
in Beijing.
    Ms. Nie Lina, a woman from Henan province, contacted AGA 
because of her difficulties. She is currently 5-months 
pregnant. Her family's house was forcibly demolished, but she 
could get no redress from the local government. She had no 
option but to petition the central government in Beijing, and 
was beaten many times as a result.
    She was then put into administrative detention in Beijing's 
Jingjiuzhuang center.
    On March 28, 2011, Ms. Nie was transferred from 
Jingjiuzhuang to her local detention center for 10 days, during 
which time she suffered beatings to her head and body at the 
hands of government agents.
    On April 19th, Ms. Nie was again arrested and kept in a 
detention center in Xiangcheng, Hunan. Seven to eight male 
government agents undressed her in the court yard of the 
detention center in front of 60 onlookers, leaving only her bra 
on her upper body. Afterwards, she was dragged to ultrasound 
exams and threatened with forced abortion. She was extremely 
frightened and greatly humiliated. After she reached out to AGA 
our team mobilized hundreds of others to pray for her safety.
    God answered these prayers, as she was spared a forced 
abortion in the end because none of the authorities dared sign 
their name to authorize it. During her 3 day detention, she was 
given no food or water by the authorities. Because she was not 
fed, she suffered severe stomach pain; only a woman working in 
the kitchen had compassion, sneaking her some bread.
    The government agents warned her, ``We'll kill you if you 
go to Beijing to petition again. The police in Beijing told us 
to arrest you.'' I asked if she had visited sensitive locations 
with connection to the Jasmine Movement. She answered that she 
had no idea about any ``jasmine.'' Her only purpose was to 
uphold her rights by petitioning in Beijing.
    In another case, a victim of the Family Planning Policy was 
detained in Jingjiuzhuang in March 2011. (She has agreed to 
publicize these details on condition of anonymity.) Several 
years ago, a farmer's wife from Nanping, Fujian, was forced to 
undergo tubal ligation surgery, a forced sterilization.
    The doctor mistakenly severed the ureter tract of one 
kidney, leading to infections in her kidney system. Even when 
Beijing hospitals proved that the ureter tract had been 
medically severed, the local government and hospital refused to 
compensate her, leaving her no option but to petition the 
central government.
    Local law enforcement agents threatened that if she 
petitioned the government again, her death would occur under 
``murky'' circumstances. She only recently discovered that the 
nervous atmosphere was the result of something called 
``jasmine.''
    Another of AGA's programs is our Orphan Scholarship 
program. As a result of the one-child policy and the 
traditional bias against girls, many newborn girls are 
abandoned by parents quickly after birth. AGA stepped in to 
provide not only shelter and care but also scholarships for the 
girls, who are now attending elementary, secondary or 
undergraduate schools.
    Among these orphans are Shi Minjie, who was found nearly 
frozen in a basket 18 years ago, but who is now able to attend 
college with the help of AGA's scholarship; and ``Little 
Thing'' who was found last year and received lifesaving medical 
treatment through AGA's assistance.
    Since the beginning of 2011, the nuns suddenly became 
unenthusiastic about AGA's assistance, nearly terminating all 
aid in February and March. After a special investigation, we 
discovered that the nun in charge of processing the funding, a 
member of the Tongcheng Buddhist Association, had received 
pressure through ``talks'' with local authorities. She was no 
longer willing to have any connection with economic aid from 
abroad, even charitable foreign Christian donations.
    In conclusion, All Girls Allowed testifies that the recent 
crackdown has included not only political dissidents, civil 
rights advocates and Internet opinion, but also the Chinese 
Government has been restricting the purely humanitarian 
activities of organizations such as All Girls Allowed and 
continues to persecute our workers. Because AGA works mainly to 
benefit girls and mothers, such restrictions have led to the 
direct suffering of the most vulnerable communities.
    We urge American leaders to stand in solidarity with girls 
and mothers in China by continuing to support humanitarian 
organizations such as AGA, and also to act in the following 
ways: (1) Appoint a special investigator to determine the 
extent of human rights violations as a result of the one-child 
policy; (2) apply diplomatic pressure to the Chinese Government 
and issue a Congressional Resolution condemning the one-child 
policy; (3) partner with the Chinese Government to develop an 
alternative solution to population growth that is humane and 
effective.
    Thank you.
    [The prepared statement of Ms. Zhang follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Thank you very, very much.
    I would like to now yield to Steven Mosher.

STATEMENT OF MR. STEVEN MOSHER, PRESIDENT, POPULATION RESEARCH 
                           INSTITUTE

    Mr. Mosher. Thank you, Mr. Chairman, Mr. Vice Chairman, and 
thank you very much for holding this important hearing today.
    I don't want to summarize recent events in China because 
there are people here who can more adequately do that than I. I 
do want to put it in the larger perspective, however, because 
it seems to me that the aborted Jasmine Revolution is only the 
latest chapter in Beijing's long and increasingly sophisticated 
campaign to quell all manner of dissent and to control all 
important aspects of civil society.
    It's not surprising the Chinese dissidents sought to follow 
in the footsteps of democratic activists in Tunisia and Egypt. 
But the Chinese Government was way ahead of them. It preempted 
their actions at every stage. On Saturday, for example, 
February 19th, the organizers of peaceful demonstrations in 
China announced a very specific plan for demonstrations the 
following day, February 20th.
    Even 10 days before that Chinese President Hu Jintao as the 
commander of chief of the PLA and the chairman of the Chinese 
Communist Party had already issued a directive to the military 
to be prepared for contingencies. This is well in advance of 
any call for peaceful demonstrations.
    The directive issued on February 10th specifically 
instructed party cells within the military to study a document 
called Regulation Governing the Works of the Party Committees 
in the Military whose purpose was to strengthen the Party's 
control of the military.
    The explanatory note that came along with this regulation 
said that each one of the 33 articles centers on ensuring the 
absolute control of the Party over the military. You can 
understand why a one-party dictatorship would be concerned that 
in the event of peaceful demonstrations military would be 
absolutely obedient to its dictates.
    In fact, the document goes on to remind the military that 
all of its members owe their allegiance first and foremost to 
the Party, then to the socialism, then to the state, and 
finally, and only lastly, to the people. If the Party finds 
itself in a confrontation with the people, this prioritization 
intimates, the military is to support the Party at all cost. We 
know what that meant in Tiananmen some 20-odd years ago.
    And then on February 19th, the same day that the dissidents 
issued a detailed plan for peaceful demonstrations in 13 major 
cities Hu Jintao, held a meeting of top officials to combat the 
perceived threat of unrest. According to the officials Xinhua 
News Agency, the meeting not only included all nine members of 
the CCP's powerful Politburo Standing Committee, but also 
provincial heads, ministry chiefs and senior military 
officials.
    Such a high-level meeting could not possibly have been 
convened overnight. Obviously this was in planning for a long 
time suggesting again suggesting again the preemptive nature of 
the Chinese Government's response to the upheavals in the Arab 
world and to their possible spread to China.
    In his surprisingly blunt address, Hu Jintao stressed that 
the Chinese Communist Party must strengthen its ``management of 
society'' in order to stay in power.
    The ``management of society'' is a phrase that I haven't 
heard before. Chairman Mao Zedong, one of the founders of the 
Chinese community party, always talked about serving the 
people. Now Hu Jintao is talking about managing the people. 
This formulation marks a major departure from standard 
Communist rhetoric.
    The purpose of this societal management, according to Hu, 
is to ``maximize harmonious factors and minimize non-harmonious 
ones.'' In other words, those who adhere to the Party line are 
to be encouraged, while those who depart from it are to be 
crushed. I suppose there are many ``non-harmonious'' factors 
languishing in jail as we speak today being minimized, 
sometimes unto death.
    The following day, the very day, in fact, slated for the 
demonstrations, the Politburo member in charge of national 
public security weighed in. Zhou Yongkang called on the Party 
not just to serve the people, but to manage the people as well, 
and announced specific ways in which this new ``management'' 
scrutiny would be carried out.
    He announced a national database containing information on 
everyone in the country, including specific groups of people 
which is code for people are religious, minorities, political 
dissidents, other people who question the Party's actions in 
anyway.
    Second, with strong leadership from the Party, cyberspace 
was to be brought under even stricter government control with 
strict enforcement of anti-sedition laws. Third, foreign non-
governmental organizations in China will be subjected to a 
``dual system of supervision.'' I think this speaks to All 
Girls Allowed's problems in China where they are now being 
supervised out of business in effect.
    This can only mean that all of these organizations, even 
foreign organizations that are simply there to do charitable 
work and have no interest in politics whatsoever, will be 
subjected to heightened scrutiny by several different Chinese 
Government agencies and perhaps closed down.
    Fourth, an early warning system will be put in place to 
alert the authorities to social grievances, so as to allow them 
to defuse problems before they deteriorate into outright social 
unrest. Now, I would point out here that none of this is really 
new. It's an elaboration. It's a deepening of what has gone 
before.
    I mean, the Ministry of State Security already has compiled 
extensive files on Chinese who have in the past questioned this 
or that government policy. The Chinese Government's monitoring 
and control of the Internet has been growing for years. Foreign 
organizations have always been viewed with suspicion, and 
Chinese citizens have always been monitored by Party-run social 
monitoring networks.
    The amount of resources, the amount of money going into 
these actions is increasing at an enormous rate. Big Brother in 
China is getting ever bigger, not as we hoped 20 years ago ever 
smaller as civil society grew.
    Even by the time of the Olympic Games in 2008, we saw a 
five-tiered social monitoring network. It included camera 
surveillance in public areas. It included Internet 
surveillance, regular police patrols on the streets, monitoring 
by peers in the workplace, and monitoring by neighborhood 
committees. Of course, this wasn't created in 2008 for the 
Olympics. Some of these things had existed from the founding of 
the People's Republic of China, the neighborhood committees, 
for example, reporting on your fellow workers in the workforce.
    This is not an over-reaction on the part of the regime to 
the so-called Jasmine Revolution. This is a misinterpretation 
of what happened. The government wasn't reacting to events at 
all. It was anticipating them. All of its actions were taken in 
advance of any major public demonstrations and are more 
properly characterized as a kind of preemptive suppression.
    Now, we in the Population Research Institute have carried 
out investigations in China over the years as you know, Mr. 
Chairman. I want to talk about a couple of things that have 
come to light in our recent visits to China.
    Well in advance of any unrest in the Arab world, the 
Chinese Government was tightening controls on civil society, 
especially in the last year or 2. Two examples. The 
intensifying persecution of Christians is one. As some of you 
may know, the Chinese Government has now reasserted control 
over the Catholic Church in China and has installed an illicit 
bishop as the head of the church organization run by the 
Chinese Government in China.
    It has also actually put a man, Ma Yinglin, who has been 
excommunicated by the Vatican as the head of the Catholic 
Bishop Conference in China. Now an official non-Catholic is in 
charge of the Catholic Bishops in China. I don't think you can 
get more heavy-handed than that. That violates the unspoken 
concordant that we saw between the Vatican and the People's 
Republic of China over the last several years in a way that 
probably means there is no going back.
    We also looked into the one-child policy on our recent 
visits to China and we've already heard some heart-wrenching 
stories today about particular instances of that. Our 
investigation was focused on what are called model birth county 
programs which are run by the U.N. Population Fund.
    We have visited over the last many months six different 
counties which were identified by the United Nations Population 
Fund as model birth control counties where the UNFPA told us 
that targets and quotas had been lifted, that women were free 
to voluntarily select the timing and spacing of their 
pregnancies, and that abortion is not promoted as a method of 
family planning.
    We found in those counties all the abuses that you 
mentioned in your opening remarks and that have been brought up 
here on a couple of occasions already. Let me just speak to a 
couple of points that haven't come up yet. We visited Fengning 
Manchu Autonomous County, Hebei province. That's a county right 
near the border with what we used to call Manchuria. It's a 
U.N. Population Fund Model Birth Control County. Many of its 
residents are of Manchu decent, hence its designation as a 
Manchu Autonomous County.
    From the beginning of the one-child policy the Chinese 
Government has maintained that the policy does not apply to 
minorities like the Manchus, like the Uyghurs, like the 
Tibetans. In fact, the UNFPA, of course, has repeated those 
claims on many occasions.
    We interviewed a number of Manchus who assured us that the 
one-child policy was being just as rigorously enforced on them, 
this minority, in this U.N. Population Fund Model Birth Control 
County. It was being enforced in the same way with targets and 
quotas and coercive sterilizations and, if need be, coercive 
abortions that it was being enforced everywhere else. The 
Chinese Government's claim that all minorities are exempt from 
the one-child policy, which the UNFPA has at various times 
repeated, seemed simply not to be true, at least in this 
county.
    The other thing I would like to talk about in conclusion is 
child abduction, child trafficking, and the one-child policy. 
We visited a county in Guangxi Province, Lipu County, which is 
not very far from the border with Hunan Province to the north. 
This is another U.N. Population Fund Model Birth Control 
County. We were told by local officials, ``At the present time, 
if you don't pay the fine, they come and abduct the baby you 
just gave birth to and give it to someone else.''
    We have all just read in the last couple of weeks that this 
practice of child abduction has been reported in the Caixin 
Century magazine where authorities in the Southern Province of 
Hunan, just north of where we conducted our investigation, are 
looking into a report that population control officials seized 
16 babies born in violation of strict family planning rules, 
sent them to state-run orphanages which then in turn sold them 
abroad for adoption. They quoted an individual saying, ``Before 
1997 they usually punished us by tearing down our houses for 
breaching the one-child policy but after 2000 they began to 
confiscate our children.''
    This is the same kind of thing that we found, Mr. Chairman, 
that they are not tearing down homes so much as collecting huge 
fines from parents. If they can't pay the fine, then the babies 
are taken away, abducted. The orphanage pays the population 
control officials a couple thousand renminbi for each child.
    Then, of course, they in turn collect $3,000 to $5,000 for 
each child adopted overseas, money that is paid by the adoptive 
parents. It's worth noting that these two reports, our report 
and the report from China, came from the same general area of 
China and occurred at neighboring provinces.
    Local officials, of course, have denied that they abduct 
children. They deny that they traffick in babies but it is well 
known that China's ``job responsibility system'' requires them 
to rigorously enforce the one-child policy and that their 
success or failure in this area determines future promotions or 
demotions.
    Abducting and selling an illegal child or baby would not 
only enable an official to eliminate a potential black mark on 
his record, it will allow him to make a profit at the same 
time. In this way the one-child policy through its system of 
perverse and inhumane rewards and punishments rewards officials 
for violating the fundamental rights of parents to decide for 
themselves the number and spacing of their children.
    Child trafficking has occurred in other countries that 
offer children for adoption in Cambodia, Nepal, Vietnam where 
the abuses are so rampant that the U.S. has put a moratorium on 
adoptions. I have always encouraged adoptions from China 
arguing that every baby adopted from China is a life saved but, 
Mr. Chairman, it may be time to consider a similar moratorium 
on adoptions from China. Thank you.
    [The prepared statement of Mr. Mosher follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Thank you very much, Mr. Mosher.
    Mr. Kine.

  STATEMENT OF MR. PHELIM KINE, ASIA RESEARCHER, HUMAN RIGHTS 
                             WATCH

    Mr. Kine. Thank you very much, Chairman Smith, Vice 
Chairman Fortenberry, and other distinguished members of the 
committee and subcommittee. Human Rights Watch first wishes to 
thank the Committee on Foreign Affairs for convening this 
timely hearing. It is a privilege to participate along with 
such distinguished panelists.
    I just want to talk very quickly about the questions before 
us; what's going on, why it's happening, and what the U.S. 
should be doing about this. What we have documented since mid-
February along with other international and domestic human 
rights organizations is the Chinese security forces arresting, 
detaining, and disappearing dozens of human rights defenders, 
lawyers, civil society activists, artists, and bloggers.
    I think the thing that is really notable in this case, 
obviously the very moving testimony of Mr. Wu and Mr. Wei 
Jingsheng is that the Chinese Government is no stranger to 
using repression against its people, but what we've been seeing 
in recent weeks is a real ratcheting up in terms of the 
unlawfulness and the sheer thuggishness of the Chinese 
Government and the security forces' methods against its people.
    The use of enforced disappearances are particularly 
frightening. Individuals such as the artist Ai Weiwei, lawyers 
like Liu Shihui, Li Tiantian, these are individuals who have 
been disappeared without any recourse, due process of law, no 
protection, incommunicado at high risk of torture in custody.
    These individuals are suffering these excesses for doing no 
more than asking the Chinese Government to abide by its own 
laws and to grant them the rights and freedoms enshrined in the 
Constitution of the People's Republic of China.
    Perversely, these things are happening in a background in 
which the Chinese Government and senior leaders are evermore 
ready to use quite lofty rhetoric on human rights in sharp 
contrast to the grimmer reality on the ground. It's worth 
noting that in December 2010, Liu Xiaobo became the world's 
first and only imprisoned Nobel Peace Prize laureate.
    The Chinese Government marked the conclusion of its very 
first 2-year national human rights action plan, a very 
aspirational document that was supposed to address these types 
of issues. With your permission I would like to enter into the 
record a Human Rights Watch Report, ``Promises Unfulfilled,'' 
an assessment of China's very first national human rights 
action plan.
    Mr. Smith. Without objection, so ordered.
    Mr. Kine. Thank you very much, sir.
    So that's the situation on the ground. Now, why is this 
happening? Well, obviously the immediate cause is the events in 
the Middle East and in North Africa have sent a chill through 
the regime. They recognize that there is a potential threat to 
their legitimacy.
    Now, what is the longer term? What is the wider view on 
this? Well, the fact is that the Chinese Government is doing 
this because they know they can get away with it. The Chinese 
Government in recent years has run a cost benefit ratio on 
repression. They have concluded that it pays.
    Why do I say that? Well, echoing comments by my fellow 
panelist, Mr. Mosher, we and other organizations have 
chronicled a steady tightening and repression against human 
rights defenders, civil society organizations, NGOs, 
journalists, control of the Internet since the year before the 
2008 Olympics.
    Now, over this 5-year period while repression was steadily 
increasing, the engagement on human rights by China's key 
bilateral partners, the United States, the European Union, the 
UK, other countries, the engagement on human rights has been 
increasingly marginalized.
    It's been pushed to the edges through this annual bilateral 
human rights dialogues where human rights are taken out of the 
box once a year for a couple days, dusted off, and put back. In 
these things very often human rights are discussed without 
really talking about human beings. They are toothless and, to a 
large extent, they have rendered no effective recourse or 
impact on human rights in China.
    Now, so what is the lesson that we should take from this? 
Well, the fact is that the Chinese Government listens carefully 
to the messages from the U.S. Government. They know that the 
U.S. Government cares a lot about what the U.S. Government 
classifies as key bilateral issues and human rights have not 
been on that table. That is both short-sighted and unfortunate 
both for the victims of human rights abuses in China, but also 
for the United States.
    Why do I say that? The fact is that in this increasingly 
globalized world the victims of the Chinese Government's human 
rights abuses are no longer just Chinese citizens. It 
increasingly spills over its borders. I think the best example 
of that is the fact that in 2002/2003 when China's pernicious 
controls over media censorship and freedom of expression 
prevented news of SARS being transmitted. As a result, SARS 
spread to more than a dozen countries and killed more than 700 
people worldwide.
    What we're saying is actually there are key elements of the 
U.S./China bilateral relationship which have a human rights 
core. I'll just briefly lay out three of them. Food safety. In 
recent years we've had a catalogue of these really distressing 
issues such as poison dog food, toxic toys, poison melamine 
milk. These are issues which enter the export stream and end up 
on the shelves of U.S. supermarkets. Why?
    These are issues that if China had a functioning free 
media, if whistleblowers were not victimized, these issues 
would be treated, identified, and resolved at the local level 
but they're not. Instead we learn about them when it's on the 
front page of the New York Times because something has arrived 
on U.S. shores. This is a very important issue of visceral 
importance to U.S. consumers which has a human rights core in 
China.
    Another issue is a very important issue of investment and 
trade relations with China. Well, I think it's extremely worth 
noting that a long-term sustainable trade and investment 
relationship with China requires three things; a level, fair 
playing field, predictability, and transparency. This is the 
essence of rule of law. In China rule of law is under attack.
    Today the victims in China of rule of law are people like 
Ai Weiwei, Li Shihui, Li Tiantian and the other disappeared and 
arrested lawyers and civil society organizers. Tomorrow it 
could be U.S. corporations trying to do business in China. 
These issues eventually are going to leak up to the sanctity of 
contracts. It's only a matter of time. The other issue I want 
to mention is environment. China obviously has in many cases 
epic environmental problems that are increasingly spilling over 
its borders.
    We can't have any type of meaningful environmental dialogue 
or agreement with China until whistleblowers at the grassroots 
who are trying to expose the local state-owned factory pouring 
benzene into the river or the lake, until they know that they 
will be protected from vindictive reprisals from state security 
officials. These are three issues which are of intense 
importance to the U.S. Government and U.S. citizens which have 
a human rights component.
    I want to conclude by saying that we were encouraged early 
this week that Vice President Joseph Biden stated that the U.S. 
Government and the Chinese Government have a vigorous 
disagreement on human rights and the fact that he stated that 
it is impossible for the U.S. and China to have a long-term 
sustainable relationship based on a false foundation.
    What we need moving forward is there needs to be truth and 
candor and there needs to be a greater emphasis on human rights 
not because it's the right thing to do, not because it's our 
obligation to be defending universal rights and freedoms, but 
because it has impact on our lives here in the United States.
    You know, I think it's really important to send the message 
both to our Government and to the Chinese Government that it 
shouldn't matter how many U.S. Treasury bonds the Chinese 
Government purchases. Those purchases should not buy U.S. 
silence on key human rights abuses underway in China.
    Thank you very much for your time.
    [The prepared statement of Mr. Kine follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Smith. Thank you very much, Mr. Kine.
    Professor Worden.

   STATEMENT OF MS. ANDREA WORDEN, ADJUNCT PROFESSOR OF LAW, 
         AMERICAN UNIVERSITY WASHINGTON COLLEGE OF LAW

    Ms. Worden. Chairman Smith, Ranking Member Payne, 
distinguished members of the subcommittee, it is an honor to 
appear before you today. Thank you so much for convening this 
hearing on such an important topic.
    There is much to say about China's current human rights 
situation but given time constraints I will focus briefly on 
three interrelated aspects of the crackdown that began in mid-
February.
    First, as some of my colleagues have mentioned, the 
prevalence of enforced disappearances is particularly 
disturbing. Second, the likelihood of torture. Third, the 
silencing of human rights lawyers.
    First, I would like to begin with a little background and 
context. China is a very complex and complicated country. The 
Chinese Government and the Communist Party are not monolithic. 
There are people inside the system at all levels working to 
strengthen and promote rule of law and good governance.
    When threats to ``social stability'' appear, however, there 
is a singular focus on maintaining stability and one-party 
rule. These are the party and the government's most important 
priorities; everything else is secondary. To the Chinese 
leadership, ``maintaining social stability'' means, among other 
things, squashing dissent, keeping an ever-expanding list of 
so-called sensitive cases and issues from making their way into 
courts or onto the Internet, and detaining people, called 
petitioners, who seek to exercise their right to present 
grievances to governmental authorities.
    With no meaningful avenue for redress of grievances, it is 
not surprising that there are so many protests in China each 
year. 127,000 mass protests involving more than 12 million 
people were reported in 2008. It appears that the Chinese 
Government is fearful that the millions and millions of people 
with grievances across China will organize. The most likely 
leaders of such a movement would come from the weiquan or 
``rights defense'' movement.
    Perhaps a viable opposition might even emerge. The Chinese 
leadership is undoubtedly very concerned about what is 
happening in the Middle East and North Africa as evidenced by 
the preemptive strike against even the idea of a Jasmine 
Revolution in China. Fearful that the weiquan movement could 
become the platform for a Chinese Jasmine Revolution, the 
leadership is now set on eviscerating it.
    Even though the putative protests scheduled for February 20 
and subsequent Sundays really turned out to be nonevents in 
China, the Chinese leadership decided to, as Mr. Mosher said, 
do sort of a preemptive strike against activists, lawyers, 
bloggers, netizens, and ``mavericks,'' as the Chinese state 
media has dubbed the artist and activist Ai Weiwei. In other 
words, anyone whom they believe could organize, lead, inspire, 
or assist such an effort in China needed to be struck out 
against.
    Now I will say a few words about the issue of enforced 
disappearances. The United Nations has noted that enforced 
disappearances are frequently used ``as a strategy to spread 
terror within the society.'' I appears that the Chinese 
Government has now adopted this strategy.
    As of May 10th, according to the NGO Chinese Human Rights 
Defenders, since mid-February 2011 at least 23 activists, 
lawyers, netizens, and others have been disappeared. The 
prominent human rights lawyers Teng Biao and Jiang Tianyong 
were disappeared for over 2 months. The current whereabouts of 
16 of those disappeared since mid-February, including Ai 
Weiwei, remain unknown. Gao Zhisheng, who has been disappeared 
and tortured several times since September 2007, remains 
missing.
    With the possible exception of the disappearances of 
Uyghurs following the unrest in Xinjiang in July 2009--as Human 
Rights Watch has documented--the recent wave of disappearances 
is, as far as we know, unprecedented. Enforced disappearances 
violate international human rights law as well as China's 
domestic law.
    The United Nations Declaration on the Protection of all 
Persons from Enforced Disappearance prohibits enforced 
disappearances, defining the term as the deprivation of a 
person's liberty by a state actor or someone acting directly or 
indirectly on behalf of the government or with its consent, 
followed by the government's refusal to acknowledge such 
deprivation of liberty or disclose the fate or location of the 
disappeared person--which places the person outside the 
protection of the law.
    China's Constitution, its criminal procedural law, and 
criminal law all have provisions that prohibit state actors 
from arbitrarily depriving citizens of their personal liberty. 
The U.N. Working Group on Enforced or Involuntary 
Disappearances issued a statement on April 8th expressing 
``serious concern'' over the recent wave of enforced 
disappearances in China. The working group noted that, ``Even 
short-term secret detentions can qualify as enforced 
disappearances. . . . There can never be an excuse to disappear 
people, especially when those persons are peacefully expressing 
their dissent with the government of their country.''
    Next I will say a few words about torture. Torture is a 
widespread and persistent problem in China. Although the 
Chinese Government has undertaken a variety of legislative and 
regulatory measures over the years in an effort to curb the 
problem, torture continues, both in lawful detention facilities 
and in secret detention centers such as ``black jails,'' which 
are predominately used to detain petitioners.
    Not surprisingly, torture frequently accompanies enforced 
disappearance. The disappeared are held incommunicado. They 
have no access to counsel or family and they live in constant 
fear for their lives. They are deprived of all of their rights 
and are completely outside the protection of the law.
    The prominent professor and human rights lawyer Teng Biao 
was disappeared from February 19th to April 29th. He has not 
communicated with the outside world since his release. We have 
no idea what happened to him during his disappearance or of the 
current status of his mental and physical health. It is more 
likely than not, however, that he was mistreated and warned not 
to communicate anything about what happened to him.
    A month-and-a-half before he disappeared for 70 days, Teng 
Biao published an op-ed in the Wall Street Journal in which he 
described beatings and threats he received during a brief 
encounter with China's domestic security police last December 
after attempting to visit the home of another human rights 
lawyer, Fan Yafeng.
    An officer threatened that they would treat him as they 
treat Falun Gong practitioners--that is with torture. And then 
one police officer said to another, ``Why waste words on this 
sort of person? Let's beat him to death and dig a hole to bury 
him in and be done with it.'' The police officer then addressed 
Teng Biao. ``Think your family can find you if you're 
disappeared? Tell me, what difference would it make if you 
vanished from Beijing?''
    Few of those who have been released after being detained or 
disappeared during the current crackdown have spoken publicly 
about being tortured or mistreated while in custody of the 
police or other government agents, for fear of reprisals. There 
are unconfirmed reports of beatings and other cruel and 
humiliating treatment. One confirmed report involves Jin 
Guanghong, a lawyer based on Beijing, who disappeared for 
approximately 10 days in April. He was held in a psychiatric 
hospital for part of this time, where he was tied to a bed, 
subjected to beatings, and forcibly medicated.
    Next to wrap up I will address the silencing of human 
rights lawyers, again related to the first two points of 
enforced disappearance and torture. Another alarming feature of 
the Jasmine crackdown is the targeting of China's brave and 
beleaguered human rights lawyers.
    The harassment and persecution of human rights lawyers by 
Chinese authorities is by no means new. What is new, however, 
as some of the other panelists have already mentioned, is the 
scope and prevalence of the use of extra-legal and criminal 
methods to suppress them.
    In addition to the examples of disappearances and torture 
of human rights lawyers mentioned above, and by my fellow 
panelists, at least one prominent human rights lawyer has been 
criminally detained during the Jasmine crackdown. On April 7th, 
Ni Yulan, a Beijing-based human rights lawyer and housing 
rights activist, who has been detained and tortured multiple 
times over the past decade, was taken into police custody along 
with her husband for ``creating a disturbance.''
    To conclude, I am an optimist by nature and wish I could 
end my remarks on a positive note but the reality is that the 
human rights situation has gone from bad to worse since the 
run-up to the 2008 Beijing Olympics, when many hoped that the 
repressive measures taken before the Olympics would ease after 
the conclusion of the Games. But then came Charter '08 in 
December 2008 and then 2009 was the year of many sensitive 
anniversaries. Then in 2010 the Nobel Peace Prize was awarded 
to Liu Xiaobo.
    Crackdowns and repression have become the new normal with 
2011 the worst in many, many years. There is no reason to think 
that things will improve. The leadership transition next year 
will again provide a justification to keep a tight lid on any 
and all ``nonharmonious'' activity. But there are some things 
the administration and Congress can do.
    Also, Ranking Member Payne, I very much appreciated your 
comment on their courage is cause for hope. I do agree with 
that as well. I have recommendations in my written statement 
but one recommendation that I wanted to particularly flag at 
this moment is the U.S. China Legal Experts Dialogue, which 
will be held in Washington in June, just next month.
    I urge the U.S. delegation to raise specific cases of 
lawyers who have been disappeared, detained, or subjected to 
unlawful home confinement during the Jasmine crackdown and 
before. Still missing lawyers include Gao Zhisheng, Li 
Tiantian, and Liu Shihui. Chen Guangcheng and Zheng Enchong are 
still unlawfully confined to their homes.
    I would hope that the U.S. delegation would inquire after 
Teng Biao, Jiang Tianyong, Li Fangping, and other human rights 
lawyers who were recently disappeared and released but who are 
now silent. Dialogue participants should also address a 
fundamental issue that is recognized by prominent legal 
academics and others in China as well as some of my fellow 
panelists--that rule of law in China is regressing.
    Thank you very much.
    [The prepared statement of Ms. Worden follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Professor.
    Thank you all for your very incisive testimony and 
recommendations. Frankly, I would announce that this is the 
first of a series of hearings on China. We will be focusing on 
a number of very specific abuses from labor rights which are 
crushed with impunity, to the one-child-per-couple policy which 
we've had hearings on in the past.
    Obviously when an entire generation of women and young 
girls are being brutally destroyed, it warrants a separate 
hearing. We will be focusing on the rule of law and lawyers, 
especially those who have disappeared and are most likely, like 
Gao, being tortured horrifically. And a number of other issues 
that I think, Mr. Kine, you made a very good point about, the 
transparency, the predictability.
    I have been arguing, frankly, with the business community 
for years that if they can crush human rights with nary a word 
of real dissent from the West, especially and including the 
United States, it's only a matter of time when contract law 
will be violated if it serves the interest of the dictatorship. 
I thought your point was very well made and certainly on the 
environment issues and health issues as well.
    Wei Jingsheng, you pointed out that at the visit of Hu 
Jintao last January that the United States was humiliated. You 
said today how it was seen as a weakness in terms of how, 
unfortunately, the administration engaged Hu Jintao.
    Mr. Kine, you talked about how the annual human rights 
dialogue is toothless. You used other words to describe how 
human rights needs to be on the table everywhere, not just in a 
hermetically sealed type of conversation.
    Mr. Mosher, I think your point about Hu Jintao no longer 
talking about serving the people but managing them is right. 
Frankly, I think he's managing the world, and that includes 
Washington, DC. It includes both sides of the aisle. It 
includes the White House and Foggy Bottom.
    When you said, Mr. Kine, about China buying silence, Wei 
and Harry have always talked about how people in prison are 
beaten more when we acquiesce and kowtow. To think that we're 
buying silence to sell our debt is unconscionable. It's not 
even a good reading of the real situation at hand.
    The Chinese Government would have no place to go with their 
finished goods if the U.S. market were to crumble and no longer 
be available to them. We are symbiotically joined at the hip, 
if you will, in terms of our economic relationship. We, I 
think, have a much greater, I would say almost completely wide 
open, area to speak about human rights without the almost 
cowardly view that if we do so, they might retaliate. Well, let 
them retaliate. They will lose far more than the United States 
will.
    When Mrs. Clinton went to Beijing for her first trip, she 
said, ``I'm not going to allow human rights to interfere.'' Her 
words were carried by all the news media, with the climate 
change and with peddling U.S. debt. She set back human rights 
efforts of the U.S. Government significantly. I have raised 
that with her personally, so I don't need to say it here; I 
have done it at hearings where she has testified.
    I raise that because I'm concerned about the on again/off 
again. You know, the Vice President says something that people 
take away as, ``Now we're getting serious.'' An article appears 
in a periodical with Mrs. Clinton talking stronger. I would 
remind everyone, including my very distinguished colleagues on 
the subcommittee, that immediately prior to Hu Jintao's visit 
here Secretary Clinton made some very good statements that we 
were all saying, ``Yes, we are going to be serious about human 
rights when Hu Jintao marches into Washington in January.''
    Regrettably, a week later, and the Washington Post actually 
did a very laudatory editorial noting that change, and then by 
January 19th, the following week after those statements, the 
Post made a very very--I would without objection ask that this 
editorial be made part of the record--the headline was, 
``President Obama makes Hu Jintao look good on rights.''
    It notes, very sadly and tragically, that the President's 
remarks were surprising because his administration had 
indicated before Hu Jintao's visit that he intended to make 
human rights a more central part of China policy.
    In the press conference the President of the United States 
said, ``China has a different political system than we do. 
China has a different state of development than we do. We have 
different cultures and a very different history.'' Frankly, I 
thought that was outrageous. Yes, they have a different 
political system. It's called dictatorship.
    The Chinese people, and they showed it in the most robust 
fashion imaginable with people being killed and incarcerated at 
Tiananmen Square and all the dissidents who languish today 
being tortured, they are saying with their blood, with their 
sacrifice that they want a different political system that 
respects fundamental human rights. To say they have a different 
culture is very disturbing.
    The Chinese, just like the people in the Middle East, just 
like people everywhere, yearn to be free. It's not a matter of 
some day 30 years from now maybe they'll get it. They deserve 
it right now. I was very disappointed. The President, according 
to the editorial, made no mention of Mr. Gao who has not been 
heard from since--we raised this issue. We've got his picture 
here--since his abduction and torture. Or Liu Xiaobo, who has 
succeeded Mr. Obama as the Nobel Peace Prize winner.
    I would just say it's 5 months almost to the day, December 
10th, that Liu Xiaobo got the Nobel Peace Prize. Anyone who 
might want to speak further on the lack of President Obama 
raising his voice? You do it. We do it. But where else is the 
call for this brave Nobel Peace Prize winner who was awarded in 
absentia in Oslo? We need to be ratcheting up as they are 
ratcheting up their repression. We ratchet up our voices and 
also connect this to other policies. You might want to speak to 
that and anything else that I just mentioned.
    Finally, let me just say about the--I'll go on to the 
second question if any of you would like to speak to it.
    Mr. Wu.
    Mr. Wu. I will talk a little bit about Liu Xiaobo's case. 
In the Chinese verdict the Chinese documented the name of our 
Web site because Chinese Government identified three articles 
from Liu Xiaobo that were published on the Chinese Web site and 
charged him, sentencing him to jail for 11 years.
    They intend to tell people that our Web site and Liu Xiaobo 
were involved in so-called intention to subvert, this is the 
claim. Unfortunately, today we try to contact Liu Xiaobo and 
Liu Xia. Liu Xia entirely disappeared. Even today nobody can 
contact Liu Xia whatsoever, by phone, by email, by personal 
contact, whatever. What is this? Home detention? Home arrest? 
Nothing. Chinese Government used security to lock up Liu Xia.
    At the same time many people have the same situation. This 
is no talking about the law or whatever. They just do it. The 
government just does that. About Liu Xia we do not know. This 
is not talking about Chinese Constitution, talking about 
Chinese law or whatever. There is no law in the country. 
Whatever the government just did it. Thank you.
    Mr. Smith. Mr. Wei.
    Mr. Wei. You had talked about what can we improve on human 
rights issue in China. I do have one suggestion. I remember 
back 10 years ago when PNTR, permanent normal trade relations, 
was passed in the U.S. Congress. There is an amendment as well 
as explanation for CECC, the Congressional-Executive Commission 
on China.
    According to the Representative Levin who made the 
amendment, he was saying, ``Look, the CECC is not only 
observing the situation in China, it could also make a 
recommendation to stop this PNTR when the situation gets 
worse.'' Now it's not just the issue of human rights in China 
that is deteriorating but also there is a huge trade deficit in 
between China and the USA. Now I really think CECC should play 
a function.
    There is a tendency with the Chinese Communist Government 
nowadays it doesn't really care about what the United States or 
U.S. Congress cares about. I think when this CECC comes to play 
and gives some pressure to them, I think the Chinese Government 
will have to respond. Thank you.
    Mr. Smith. Yes, Mr. Kine.
    Mr. Kine. Mr. Chairman, I just want to address your 
comments with regards to what the U.S. can do. I think what 
we're looking at is this is an extremely pragmatic government. 
I think it's worth noting this is the world's first 61-year-old 
evolutionary Communist Party and it is a government that has 
been able to pull and push an obdurate state bureaucracy into 
the World Trade Organization. It's linked into the global 
system.
    When we speak to the Chinese Government on its points of 
interest, it gets it. Unfortunately, as I mentioned, to a large 
extent human rights have been marginalized. When and if we can 
start to talk to the Chinese Government and raise issues such 
as Liu Xiaobo's completely unjust conviction, the disappearance 
of these individuals, the arbitrary detention of Liu Xia, Liu 
Xiaobo's wife, and say these have ramifications for our 
understanding of rule of law and the sustainability of our 
economic and financial and trade relationship.
    That's when heads come up and people get it. These are 
tools to a large extent which have been left in the tool box 
and they really need to be taken out. I think that it's 
important to remember that if we don't do this, the price of 
silence is the status quo will continue and that's really to no 
benefit for either side. Thank you.
    Mr. Smith. Thank you. Let me just raise the issue, Mr. 
Mosher. You talked about your investigations and whatever 
you've published if you could make that available to the 
committee or the subcommittee I would appreciate it.
    In denying U.S. funds to UNFPA in 2008 Deputy Secretary of 
State John Negroponte wrote, and I quote,

        ``Chinese birth limitation programs retain harshly 
        coercive elements in law and practice including 
        coercive abortion and involuntary sterilization. . . . 
        It is illegal in almost all provinces for a single 
        woman to bear a child.''

He also noted that the Chinese law is ``the foundation of its 
coercive policies and practices and the UNFPA comports with and 
adheres to Chinese law.''
    So the Chinese law is paramount. Groups that operate there 
then comport to it but then they create a false impression, in 
my opinion, by suggesting that something more reform minded is 
happening in those areas. You have found, if I'm not mistaken, 
in the six counties that you investigated that is the case as 
well.
    Why, in your opinion, is the UNFPA not on the side of 
standing with the girls that are being aborted simply because 
they are girls? They are missing as many as 100 million girls 
in China. Nobody knows the exact number but the gendercide is--
the implications for trafficking, not only the loss of all of 
those young women who are now dead and their mothers wounded, 
but the trafficking problem.
    Now apparently, and I read Reuters and AFP articles, as 
well, about family planning, people are allegedly selling 
children, even children who were born pursuant to the one-
child-per-couple policy--so there are stolen children as well--
and putting them onto a kind of black market. If you could 
speak to that, I would appreciate it.
    Ms. Zhang, you might want to speak to it as well, or anyone 
else.
    Mr. Mosher. I think, Mr. Chairman, that we have to remember 
that this was an organization, the United Nations Population 
Fund, that was set up to do precisely the kinds of programs 
that the Chinese Government embarked upon back in 1979. That 
was the year I first went to China. That was the year the U.N. 
Population Fund went to China with its first $50 million of aid 
and support for China's one-child policy.
    It took me about a few months to realize how coercive the 
policy was. I was an eyewitness to forced abortions and forced 
sterilizations in China. Surely, by the end of my year in China 
the U.N. Population Fund, which had been there an equal length 
of time, should have realized the policy was being carried out 
in a coercive fashion that was in fundamental violation of the 
UNFPA's own principle that couples have the right to determine 
for themselves the number and spacing of their children.
    Yet, as you well know, we have never been able to convince 
the U.N. Population Fund to withdraw from China. They continue 
to get ever more deeply involved in China's one-child policy. 
This model birth control program which they announced, I 
believe, to you back in 1998, was supposed to free at least 32, 
now 72 counties, from the more onerous restrictions of the one-
child policy.
    In those counties we were supposed to see an end to targets 
and quotas. Women were supposed to be free to determine the 
timing of their child bearing. We have repeatedly gone to 
China, we being the Population Research Institute, and found 
that isn't the case. In these counties so touted as models by 
the U.N. Population Fund as being models free of coercion, you 
find the same kinds and levels of coercion there that you find 
anywhere else.
    So what use has the U.N. Population Fund been in 
ameliorating the bad aspects of China's one-child policy? It's 
been over 30 years since the UNFPA went into China. The abuses 
continue. Arguably they are as bad now as they ever were.
    I mean, you can go into these model family planning 
counties and see openly posted on bulletin boards statements 
like, ``Under the direction of the birth control bureaucracy 
and the technical personnel assigned thereto, married women of 
child-bearing age who have already had one child shall be given 
an IUD. Those couple who have already had a second or higher-
ordered child shall be sterilized.''
    It doesn't say they should be, it says they shall be. This 
is an order. This is in a model family planning county. Those 
who illegally give birth to one child will be assessed a fine 
three to five times their annual income. A second illegal child 
assesses a fine five to seven times the annual income. A third 
child a fine seven to nine times their annual income. Put that 
in the context of the United States a fine 3 to 5 years a 
family's average income in the U.S. would be a fine of $150,000 
to $200,000. It's an equivalent economic blow in China.
    Again, these fines are imposed. These punitive fines are 
imposed in model family planning counties run by the U.N. 
Population Fund. I believe it should immediately withdraw from 
China in shame. Having failed to do that, we should withdraw 
our funding from this organization.
    Mr. Smith. Just let me ask Ms. Zhang if you would respond 
to this. About 1\1/2\ years ago we convened a hearing in the 
Tom Lantos Human Rights Commission. We heard from a woman named 
Wujian who is a student, an unmarried woman, a student in the 
United States, and she told her story. Without objection I 
would like to put her testimony into this record. It is 
entitled, ``My `Little Foot,' My Lifelong Pain.''
    She was forcibly aborted. She couldn't finish her 
testimony. She stood right over there behind a cloak, if you 
will, because the Chinese Government had a few thugs sitting in 
the back taking notes trying to discern her identity. She 
talked about how she was in a room full of moms who had just 
gone through forced abortions. They were crying and then it was 
her turn.
    You can read it if you would like but it is absolutely 
chilling. She makes a point that, as the Chinese say, ``If you 
have broken your tooth, you swallow it by yourself.'' She 
pointed out in her testimony, and I quote, ``I have never 
shared this experience with anyone before because the scars in 
my heart are 1 million times more painful than the scars in my 
body.''
    She talked about how other Chinese women had this repressed 
trauma that is so profound and so devastating. Yet, they don't 
come forward necessarily because they just internalize it. I 
believe WHO is right when they say so many women are committing 
suicide. The number is about 500 per day.
    We don't know how accurate that is but that is an estimate 
they've made. I mean, the women of China are traumatized but it 
is below the surface. I'm wondering what impact that's having 
on the women that your people on the ground are seeing with 
regard to the emotional health, the psychological health of the 
women in China.
    Ms. Zhang. For Ms. Wujian her pain has not stopped. All the 
Communist officials in her hometown keep on making trouble for 
her. Even now she is still in pain and her case is not yet 
finished. Ms. Wujian has come to the United States and she got 
asylum so she is not physically harmed anymore, yet in her 
hometown there are many people just like her who are are still 
suffering.
    Mr. Smith. Thank you. If I could just ask, Mr. Kine, has 
Human Rights Watch picked up information about the Reuters and 
the AFP articles about the sale of ``illegal children''?
    Mr. Kine. Chairman, we have noted those articles with great 
concern. This is an ongoing point of interest for our 
organization. We will continue to monitor and look for research 
opportunities.
    Mr. Smith. Thank you.
    Let me ask with regard to the designations of Tier III, 
Tier I, Tier II under the Trafficking Victims Protection Act. 
The report will be coming in just a couple of weeks. The 
information seems to be overwhelming that China ought to be a 
Tier III country because of its huge trafficking problems and 
it manifests in so many ways. Women from North Korea who get 
across the border are sold into modern day slavery once they 
get across.
    The magnet that the one-child-per-couple policy has caused 
with missing women, missing girls, is also exacerbating the 
problem. Bride selling. We've heard reports of areas in Hunan 
where there is huge coercive bride selling.
    I'm just wondering what your recommendations, if any, might 
be to U.S. Department of State about whether or not China 
should be now designated a Tier III country because of its 
egregious abuse of modern day slavery, or embrace of it I 
should say. Would you like to comment?
    Yes, Mr. Kine.
    Mr. Kine. Chairman, I'd start with a more general comment. 
I would say that I think one thing that the U.S. Government 
could be doing is urging the Chinese Government to allow more 
openness. The trouble in terms of documenting these issues in 
China today, as I'm sure Mr. Mosher can attest to, is it's 
extremely difficult. We're in a time of very, very tight 
surveillance, control, retribution against people who are 
documenting and compiling information which the government 
considers ``sensitive,'' dangerously ambiguous criterion.
    I think it's notable that the senior Chinese official on 
Charlie Rose the other night said that Americans had a very 
simple idea about China due to the fact that the U.S. media 
didn't cover it in depth or was biased. The fact is that the 
U.S. media in China are extremely controlled. They are under 
attack. In recent weeks we've had journalists be beaten and 
threatened with having their visas revoked. I think the first 
step is allowing the transparency in terms of what's going on.
    Mr. Smith. Let me also ask, if I could, your assessment as 
to how well or poorly the Human Rights Council has been, how 
robust has the United States been in raising China's human 
rights abuses within the Human Rights Council?
    Professor Worden.
    Ms. Worden. In fact, one of my recommendations is that we 
strengthen U.S. involvement in the U.N. Human Rights Council 
and that we use the Council and other multilateral fora as 
additional mechanisms by which to press the Chinese Government 
to adhere to its international obligations and commitments with 
respect to human rights.
    I do want to point out that the U.S. was instrumental in 
establishing a new mechanism, a new special procedure on 
freedom of association and assembly. The U.S. was very much 
involved in that effort and this obviously will have a great 
impact to help with the Chinese situation so I applaud the U.S. 
Government for that.
    Mr. Smith. Yes, Mr. Wei.
    Mr. Wei. About the Human Rights Council, we have been 
meeting with them for many years so we do have some basic 
observations. The Chinese members are working in that council 
and they often are directed by the Chinese Government.
    Not only that, even the staff from other countries they 
often receive a threat or corruption in this regard. To an 
organization like this they are so corrupted and their basic 
rule is that they are afraid of hooligans but they don't care 
about gentlemen. The problem with the United States is it's too 
gentleman toward it.
    Of course, you know, I'm not saying gentlemen cannot deal 
with hooligans but still I think the fact the United States 
Government is the big financial support to this organization, 
to the United Nations, then I think in regard to the Human 
Rights Council we could present a demand in the way you give 
the money out.
    Mr. Smith. Thank you.
    Ranking Member Payne.
    Mr. Payne. Thank you very much. I certainly appreciate the 
discussion here and I would certainly like to once again 
commend you very courageous folks, Mr. Wei, Mr. Wu, and Ms. 
Zhang for what you've done in standing up for your rights. I 
think it's people like you that are the unsung heroes to see 
change.
    I think, Mr. Wei, you brought up a very interesting point 
when you did raise the question about the PNTR. Many of my 
friends on the other side of the aisle push for permanent trade 
and normal trade relations, rather than the so-called most 
favorite nation status which was, in fact, the law. The 
difference between the most favored nation status was that it 
had to come up every several years for renewal.
    I think that with a push to change that most favorite 
nation status to permanent normal trade relations which comes 
up no more, at least before we had a stick to hold over their 
head. When we look at the status of China today and how they 
have failed to change as they have become stronger 
economically, I think we have to go back in history and find 
out who pushed to get them to the position where we are.
    I see the articles that are written by Mr. Kine in the 
papers that they seem to end up in, the Forbes and the 
Financial Times, Far Eastern Economic Review, the Wall Street 
Journal, American Chamber of Commerce. I have a question about 
what the conversation is with them. I'll ask you later after I 
make a statement. I listened very carefully about the criticism 
of Mr. Obama and I do think it wasn't a strong enough 
statement.
    However, I certainly think that the statements made by the 
Vice President, and I think Secretary Clinton, will also have 
some stronger statements coming up. We look back and look at 
the last 8 years of the Bush administration if you want to see 
the trade and balance deficit go through the roof. There is 
plenty of blame to go around if we want to start name calling.
    I think we have a very serious problem but the problem that 
we have has been strictly pushed by the financial and the 
economic interest of our country. That's where we have such a 
trade deficit and we have allowed ourselves to be co-opted by 
the business community to where we find ourselves in the 
position that we're in and that didn't happen in the last 2\1/
2\ years. Let me make that clear.
    The fact that we have this unbelievable trade deficit and, 
secondly, the purchasing of our debt, I too feel that it ought 
to stop. I was opposed to it in the first place. That's why I 
was opposed to PNTR. My record is clear. You can look it up. I 
don't know the records of others who speak against the tyranny 
of China and what the record is. I hope it's the same as mine.
    The fact that the Human Rights Council, I think, has to be 
strengthened. The Human Rights Council for the second term of 
it, it's been in for two kind of quadrenniums, first started 
with the U.S. nonparticipation and there were a number of 
recommendations made to change the manner in which the Human 
Rights Council functioned before you could get elected simply 
by your block of countries.
    Now you have to get a world-wide consensus, therefore, 
eliminating some that could get the approval just by being in 
their own bat. My point was with the Human Rights Council is 
that we should have been participating in it from its inception 
because if you're sitting in an organization where you have no 
say, then who is there to counteract the terrible things that 
have been said during the first term of the Human Rights 
Council and the fact that just several weeks ago the Human 
Rights Council actually had a resolution against Syria where 
they are asking Syria to come up with justifications.
    For the first time a Middle East country that has been 
doing terrible things like many of them have been doing for 
decades have been challenged by the Human Rights Council. I'm 
sure that's because the United States is there and had been 
able to raise the voice and actually got a unanimous vote on 
the condemnation of Syria in the manner in which they are 
treating their people. I think that is a giant step in the 
right direction and I hope it's the beginning of more equity 
and balance in the Human Rights Council as we move forward.
    Also the question of torture that we hear happening so much 
in China. It's a horrible thing but then I get questioned about 
enhanced interrogation, ``What does that mean? Water boarding, 
what is that?'' Other countries say, ``You do some things and 
we do things,'' therefore, try to make a moral equivalent which 
there is none.
    I think we ought to be very careful of the policies that we 
have as a nation and defend as we go in and certainly 
criticize, as we ought to, other countries that do horrible 
things to their people. I think that we have a tremendous 
amount of work to do. We need to really put the economic 
pressure on China.
    It makes no sense that if it were not for the United 
States, China would still be in the development stage and not 
the economic power that they are today. We need to look in the 
mirror to find out who helped create this situation of a nation 
that has strong legs and is moving forward. I have total 
concerns about the human rights violations. We ought to be 
firmer as we deal with them.
    I do have a question, Mr. Mosher. You suggested that you 
think it's best that the U.N. Population Fund withdraw from 
China. Are there any positive things that in your opinion have 
happened? I haven't followed the work of that agency in China 
or other parts of the world but are there any positive things 
and if, indeed, they withdraw would that make things better in 
that area or do you just think that perhaps because they are 
unable to function, the way they ought to, they should simply 
withdraw?
    Mr. Mosher. Given that it's 2011 and given that the U.N. 
Population Fund has been in China, as I mentioned, since 1979, 
I think we've given the organization a reasonable length of 
time to try and affect positive change in China.
    I have read the UNFPA reports regarding China. They claim 
that in some respects they have moderated the Chinese program, 
but if you look at China's economic advances, if you look at 
the increasing urbanization and industrialization and the 
length and the years of education that people spend in school, 
those are sufficient to account for the decrease in the birth 
rate to the increased use of contraceptives to all of the other 
things that the UNFPA would lay claim to.
    Of course, that raises the larger point of the population 
control program in China in the first place which, of course, 
is a Western borrowing because the overpopulation crises, as 
some call it, myth as others would call it, originated in the 
West and was imported into China in 1979 when the Chinese 
Government became convinced that they would not be able to 
modernize unless they drastically reduced the birth rate of 
their population.
    I think 30 years down the road we can see the fact that 
China has eliminated 400 million of the most productive 
enterprising, energetic people the world has ever known from 
their population is probably not a good thing. It's not a good 
thing for social stability in China. The Chinese Government 
claims to be very concerned about it's not a good thing because 
of the imbalance in the sex ratio and the tens of millions of 
young men who are buying brides because they cannot woo them. 
There simply aren't enough women to go around.
    The social consequence of the one-child policy, no less 
than the economic consequences of the one-child policy, are 
proving devastating. China will have a nationwide labor 
shortage within the next 2 years as a result of this policy and 
the shortage of young people going into the workforce.
    The role that the U.N. Population Fund has played in 
encouraging that policy in buying computers for the State 
Family Planning Commission so they can set targets for 
population growth shows a fundamental misunderstanding of the 
importance of human beings both in China and around the world. 
I do not think that the organization has played a positive role 
in China. I think it has encouraged the one-child policy in 
fundamental ways.
    It has certainly acted as a cheerleader for the policy 
internationally and given important political cover to the 
Chinese Government. When the Chinese people complain about 
being restricted to one child, the Chinese Government can say, 
``Well, it's not just our policy. It's a policy that is 
supported by this prestigious international organization at the 
U.N., the U.N. Population Fund.''
    That, in turn, has stymied the legitimate call for the 
Chinese people to reassert control over there own fundamental 
right to decide how many children they should have, or not have 
as the case may be.
    Mr. Payne. Also on the question--thank you very much--on 
your statement that you feel that adoptions should be ended. 
Could you explain that a little bit more? You feel it would be 
better for a family to take a child who might have a better 
situation and you think it should end.
    Mr. Mosher. Mr. Ranking Member, I have always encouraged 
adoptions from China of girls primarily, but also of 
handicapped little girls and boys because the death rates in 
Chinese orphanages are very high. Even the children that 
survive, of course, are stunted in some way developmentally 
because of the lack of human contact and love and compassion. 
Giving them a new life here is something that I have always 
encouraged.
    But the thought that these children are not simply 
abandoned but have been taken by force from their parents and 
sold to a state-run orphanage which in turn, in effect, sells 
them to adoptive couples is intolerable. I think it would be 
intolerable for American couples who are considering adoption 
as well. How heavy would it lay on your heart the thought that 
the child you got and opened your home and your heart to was 
actually abducted from her parents instead of being abandoned. 
I think until we get to the bottom of this----
    Mr. Payne. Do you think that the average adoptee is aware 
of the fact that they feel that child has been abducted and so 
forth? I mean, in your opinion.
    Mr. Mosher. I think the reports are just beginning to come 
out but the reports are of a piece with the kinds of abuses 
we've seen caused by the one-child policy in other areas, the 
buy and selling of women across national borders, the rising 
bride prices in China.
    You would think as women became scarce that their value 
would go up, that their status in society would rise as they 
became more scarce. Instead, women in China are being treated 
more and more like a commodity. That's not just women. It's 
little girls. It's baby girls. There is now in China the 
resurgence of a traditional practice called bringing in a 
little daughter-in-law.
    Because of the shortage of little girls in China, because 
of the future shortage of brides that will translate into, you 
have couples now looking for a bride for their son when their 
son is 3 and 4 years old.
    They will bring in a 2- or 3-year-old little girl and they 
will raise her as their little daughter-in-law. When she 
reaches marriageable age she will be married to their son. You 
know, it is a violation of the right of that girl to determine 
for herself her life's path. Her path is determined when she 
can hardly walk her dog.
    Mr. Payne. There is no question that China is going to have 
a very, very serious problem, as has been already indicated, in 
the future not only because they are going to have this big 
disproportion of men who will become restless, and will become 
ornery. There will be increased idle time for recreation. There 
are going to be less things to do. They are not going to be 
able to have a spouse and be married so you find the negatives 
come in.
    You find gambling increasing. You find drinking increasing. 
You find brawls on weekends where there is nothing else to do. 
There is going to be a very, very serious problem in China in 
the future. I hope the authorities understand that their policy 
is just--I mean, it's going to be serious. It's going to be a 
situation, in my opinion, that they are going to be unable to 
control. I couldn't agree with you more on the fact that this 
policy needs to end.
    Ms. Worden, there are, as we know, a number of problems in 
China. I wonder if you could prioritize what you think would be 
the areas we should move more aggressively on or if you had a 
way to prioritize civil rights or political and minority 
rights, you know, political prisoners release, criminal law 
reform, Internet freedom, religious freedom, Tibet autonomy, 
rights of minorities. Don't forget the Uyghurs. I wanted to 
make sure I got them in. Where would you suggest if we tried to 
hone in on a couple of issues?
    Ms. Worden. That's an excellent but very challenging 
question, indeed. I think that particularly in light of the 
current crackdown the issues that I discussed in my testimony--
the disappearances, torture, also arbitrary, detention, all of 
these, of course, are fundamental human rights. These are 
really the very core.
    Freedom of expression, of course, is another. It's really 
hard, I think, to prioritize. I'm very encouraged to hear about 
the set of hearings of which, I guess, this is the inaugural 
one. I'm certainly more than happy to brainstorm about certain 
issues.
    As you know, I formerly was with the Congressional-
Executive Commission on China. I think the work they do is 
excellent. I think if you consult their Web site and the annual 
report, there will also be some ideas, but they don't 
prioritize. If I may, I did want to mention a few things. You 
had mentioned Tibet and I know today the hearing is not 
targeted toward that issue but I did want to, if I may, just 
raise two thoughts, two recommendations.
    As I imagine you know, the State Department has been trying 
for quite a while to get a consulate in Lhasa. I would just 
encourage you all to support that as a priority. The post is 
extremely important to improve reporting on the situation in 
Tibetan areas and to provide services to Americans.
    The closest consulate is in Chengdu which is hundreds of 
miles away. As you know, both Tibet and Xinjiang have been 
essentially cordoned off so I think we should really try to 
enhance our efforts to have a presence in that part of China, 
as well as pushing the Chinese Government to insist on 
unrestricted diplomatic and journalist access to both Tibet and 
Xinjiang.
    Mr. Payne. As a matter of fact, the Dalai Llama is going to 
be in my town all weekend. We have the Newark Peace Summit in 
New Jersey. I'll have the privilege to speak there tomorrow if 
I get out of here today. We are very pleased with that.
    I just wonder, Mr. Kine, have you had any conversation with 
the business people since it seems like, although you are with 
Human Rights Watch, many of your articles appear in the 
financial publications. What do they say about--I mean, do they 
feel any guilt like criticism to them, for example, the fact 
the U.N. isn't doing all they can in China and, therefore, we 
should really make that clear and highlight that? What about 
our businessmen, our Fortune 500 and all that stuff? Growing up 
that sounded so good and right. That's where you want to be. I 
mean, what do they say?
    Mr. Kine. Thank you very much, Mr. Ranking Member. That's a 
great question. I would answer it this way. I think probably 
the sustaining myth of corporate America's engagement with 
China over the last 30 years, the idea is that as China is more 
engaged with the world economy through investment and contacts 
with the U.S. firms, then it will logically over time result in 
a kinder, gentler Chinese regime that respects universal rights 
and freedoms.
    That view has obviously taken a beating, literally and 
figuratively, in the last few months. You see more and more 
expressions of disquiet amongst foreign investors in China 
about the direction of Chinese policy and concern about this 
erosion in rule of law. There are perceptions that the Chinese 
Government is not living up to its World Trade Organization 
commitments, for example.
    I would also add that one of the problems is that in terms 
of foreign firms and U.S. firms engagement with China is to a 
large extent depending on the sector there has been at least an 
implicit recognition or assumption that they need to do 
business in a way in China that they can't do at home. There 
needs to be a certain amount of ethical or moral sacrifices in 
order to do business. It must be done the Chinese way.
    What's interesting is that we saw last year that Google 
took that on and said, ``We will no longer buy into that. We 
will no longer do business the Chinese way. We will no longer 
self-censor our searches'' which was an excellent example. It's 
interesting that Google still does business in China. It has a 
healthy footprint in China.
    What's disconcerting is that Yahoo! and Microsoft's Bing 
search engines in China still do self-censorship. They have not 
learned this lesson. I think another very ominous development 
is within the last 2 or 3 weeks we've had a lobbyist for 
Facebook say on record that it's concerned that in certain 
countries it won't be able to--it's not willing or won't be 
able to provide the type of free content and expression that it 
does in other countries, particularly the United States.
    In certain circumstances perhaps Facebook has allowed its 
content to be too free which is indicating at a time when 
Facebook is perhaps in conversations with a Chinese partner for 
finally accessing the Chinese market is sending a signal about 
how it wants to do business.
    I just want to make two final comments about this. I think 
a specific interest and concern of the U.S. business community 
in China is something called the law on guarding state secrets. 
The state secrecy law is probably one of the most dangerously 
ambiguous laws on any country's books.
    There is currently a U.S. citizen, Mr. Xue Feng, who is 
serving an 11-year prison term for buying on the open market, 
transparently, legally a database about China's petroleum 
industry and then finding out retroactively that according to 
the law that it was ``secret.''
    He was reportedly the subject of torture while in custody 
and is now serving an 11-year prison sentence for buying and 
accessing material that in any free country would be easily and 
readily available.
    The second thing I want to say is a good example. In 2009 
the Chinese Government tried to roll out something called the 
Green Dam Software Initiative in which they were going to 
require all manufacturers of computers to China, foreign and 
domestic, to install something called the Green Dam Software 
Filter.
    Now, experts recognize that this Green Dam Software Filter 
could also be used to filter out content which went beyond 
concerns such as pornography and illegal content. What happened 
is we saw something unprecedented in China. We saw Commerce, 
USTR, trade associations, and individual companies get up and 
say, ``We can't do this. We're not willing to do this.'' Guess 
what? Within a month the Chinese Government blinked and said, 
``We won't do this.''
    So what's the example? If foreign investors including the 
U.S. business community with support of the U.S. Government, 
with support of international trade associations, if the 
pressure against initiatives which are against universal rights 
and freedoms, if that pressure is sustained and if it is broad-
based and it's coherent, it can have impact. Thank you.
    Mr. Payne. Thank you all very much. I appreciate your 
testimony.
    Mr. Wu. I'll just say a little bit about Cisco.
    Mr. Payne. Yes.
    Mr. Wu. Well, China had a national project so-called Golden 
Shield security systems from 2000 and 2005 to set up an 
Internet system, the whole Internet system, including from the 
patrol car to the station and the local station to the 
supervision station.
    Cisco signed many contracts with the Public Security 
Department to support the national project so-called Golden 
Shield. Today it's almost done. The whole project, the 
government said, cost more than $6 billion. We don't know 
exactly how many contracts there are between Chinese security 
department and Cisco. In a number of articles the Chinese 
Government said, ``We very much appreciate Cisco's 
cooperation.''
    Particularly today, Chinese issued a charge against Nobel 
Peace Prize winner Liu Xiaobo. He was sentenced to 11 years 
there. The verdict named our Web site, and this Web site, 
Observe China--to which Liu Xiaobo sent more than 200, maybe 
300 articles to our Web site, and Chinese picked three articles 
as a charge, Liu Xiaobo's so-called intent to subvert the 
government. Well, I think it is very clear that the Chinese 
Government really has the ability to do so because they have 
Cisco's support.
    Unfortunately, last December when I was in Oslo 
participating in the Nobel Peace Prize awarded to Chinese 
dissident Liu Xiaobo, Cisco's CEO John Chambers was there--
because Cisco is a major sponsor for the Nobel Peace Prize, 
which issued an award to China's Liu Xiaobo.
    Two faces. Okay? They support the Nobel Peace Prize and 
sign a contract with Chinese security. I don't know what's 
going on but I do remember last year IBM apologized to German 
Jewish because 60 years ago IBM sold calculators to Germany's 
Hitler regime and 60 years later IBM apologized.
    I do believe sooner or later Cisco will apologize to all 
the Chinese citizens because they sell the router and the 
equipment. They told the Chinese very clearly, ``We can save 
your police power.'' Well, this is an American entrepreneur. 
They really have to do something different. Thank you.
    Mr. Payne. Thank you very much. I couldn't agree with you 
more.
    Mr. Smith. Thank you, Mr. Payne. Let me just conclude 
unless anyone else has any further statements. You've been an 
outstanding panel. As I indicated, this is the first of a 
series of hearings. We will have another Internet hearing, for 
example. You might recall, because many of you were here, we 
had Cisco, Microsoft, Yahoo!, and Google all testify.
    It's been an ongoing conversation with them on what they 
can do to disassociate themselves from the censorship and 
putting personally identifiable information outside the reach 
of the secret police in China or any Internet restricting 
country.
    Your point, Mr. Wu, is so well taken with regards to the 
enabling of dictatorship. I opened up that first hearing with a 
book that I had just read called ``IBM and the Holocaust'' and 
it talked about how they enabled the Gestapo to find Jews 
throughout Europe in order to send them to Auschwitz and other 
terrible camps.
    Let me also just make a point for the record. I wish Mr. 
Payne was still here but it ought to be noted that MFN was 
restored in 1980 under Jimmy Carter, retained during the Reagan 
and Bush administrations. President Clinton wisely linked most 
favored nation status with human rights but sadly, and 
regrettably, it was an empty promise because within 1 year he 
had completely shredded his own executive order.
    In my opinion, and I believe this passionately, that was 
the year we lost--it was May 1994, May 26th to be exact. I 
actually did a press conference that is still on the archives 
of CSPAN, as is David Bonior's press conference and former 
Speaker Pelosi. We all said basically the same thing, that this 
is a major setback for all human rights across the board and 
that the dictatorship has taken the measure of the U.S. and 
found us wanting and that profits trumped human rights.
    I would also point out for the record that PNTR, which I 
also vigorously oppose, permanent normal trading relations went 
into effect and was signed by President Clinton in October 
2000. Republicans and Democrats both voted for that 
legislation. Congressman Levin was referenced earlier by Mr. 
Wei Jingsheng.
    But hopefully, the experiment ``if we just trade more, they 
will matriculate from a dictatorship to a human rights 
respecting country'' has been shattered because that is a myth 
and myths sometimes die slow, long, painful deaths. My hope is 
that more people will realize that it's time to look at 
engagement that has linkages to a penalty phase to hold 
countries to account.
    Would anyone like to add anything further before we 
adjourn? If not, I thank you again and this hearing is 
adjourned.
    [Whereupon, at 2:02 p.m. the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Material submitted for the record by Mr. Phelim Kine, Asia researcher, 
                           Human Rights Watch

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                 <all>

</pre></body></html>
